No. ee

In The Supreme Court of the United States

JIM R. NASH
Petitioner,
Vv.

NORMA NASH, INDIVIDUALLY AND AS TRUSTEE
OF THE NORMA F. NASH LIVING TRUST, ET AL.

Respondents.

On Petition For Writ Of Certiorari
To The Arkansas Court Of Appeals

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Petition for Certiorari
filed herein contains 6,103 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1 (da).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 10, 2019.
" 2 £2 LL —

J. R. Nash

Pro Se

Nash Law Firm

700 East Ninth Street

Little Rock, AR 72202

(501) 375-7608
nashlaw@sbeglobal.net
